UNITED STATES OF AMERICA

Federal Trade Commission
WASHINGTON, D.C. 20580

Craig Tregillus
Division of Marketing Practices
Phone: (202) 326-2970
Email: ctregillus@ftc.gov

June 29, 2015
T. Scott Gilligan, Esq.
Gilligan Law Offices
3734 Eastern Avenue
Cincinnati, Ohio 45226
Dear Mr. Gilligan:
You have questioned whether a funeral provider violates the Funeral Rule by placing a
consumer in its casket display room to wait to speak with a funeral director without first showing
the consumer a casket price list (“CPL”).
As you note, Section 453.2(b)(2)(i) of the rule requires a “funeral provider” to show
consumers a CPL “upon beginning discussion of, but in any event before showing caskets.” You
take the position that until a funeral director arrives in the casket display room or other
arrangement room that also contains a display to meet with the consumer, there can be no
violation of this provision. You posit that prior to the funeral director’s appearance, the
consumer cannot inquire about caskets, and there can be no discussion of caskets or their prices
to trigger the obligation to show the consumer a CPL. We disagree with your interpretation
because it ignores the plain and direct requirement that the CPL be shown “in any event before
showing caskets.”
First, we note that the rule places the obligation to show the CPL on the “funeral
provider,” not on an individual funeral director, and it is the funeral provider that is responsible
for training its personnel in rule compliance. Thus, the funeral provider’s obligation to provide
the CPL starts before the arrival of the funeral director in the casket display room.
Second, as is the case with the Commission’s trade regulation rules and other rules that
impose disclosure requirements, the timing of the disclosure is critical.1 In this context, the
Commission deliberately sought to ensure that cost disclosure would be made “before showing
the caskets.” Significantly, the required price disclosure does not apply only to those caskets the
provider chooses to display. It also requires the provider to list the cost of other caskets it
offers.2 This enables consumers to identify the least expensive options as they consider the
1

For example, the 1984 Used Car Rule requires dealers to display a “Buyers Guide” on each vehicle’s window
stating, inter alia, whether it comes with or without a warranty and the duration of any warranty offered. 16 C.F.R.
§455.2.
2
The funeral provider “need list only those caskets that it usually offers for sale that do not require special
ordering. ‘Special ordering’ means purchasing a casket or container that is not in stock and not part of [the

favorable qualities of displayed models.3 The absence of a funeral director from the room is not
relevant to whether the consumer can review her purchase options.
Accordingly, it is staff’s opinion that a funeral provider violates the rule when placing a
consumer in its casket display or other arrangement room containing such items to wait for a
funeral director without first showing the consumer a CPL.
Please be advised that the views expressed in this letter are those of the FTC staff. They
have not been reviewed, approved, or adopted by the Commission, and they are not binding upon
the Commission. However, they do reflect the opinions of those staff members charged with
enforcement of the Funeral Rule. Staff Funeral Rule opinions are now routinely posted on the
FTC website currently located at https://www.ftc.gov/tips-advice/business-center/legalresources?type=advisory_opinion&field_industry_tid=315.
Respectfully yours,
/s/
Craig Tregillus
Funeral Rule Coordinator

provider’s] regular offerings to [its] customers.” Complying With the Funeral Rule, 12 (FTC April 2015), available
at https://www ftc.gov/tips-advice/business-center/guidance/complying-funeral-rule.
3
In rejecting a proposal that funeral providers should be required to display their least expensive caskets, the
Commission stated that the rule’s advance price list disclosures “would let consumers know what merchandise and
services the funeral providers sell, including the three least expensive caskets.” Statement of Basis and Purpose, 47
Fed. Reg. 42260, 42290 & n.317 (Sept. 24, 1982).

